U.S. Department of Agriculture
 Office of Inspector General
      Southwest Region
         Audit Report




     Food and Nutrition Service
       Food Stamp Program
       Administrative Costs
       State of New Mexico




                Report No.
                27099-14-Te
                FEBRUARY 2003
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                           Southwest Region
                                    101 South Main Street, Suite 309
                                         Temple, Texas 76501
                                 TEL: 254-743-6500 FAX: 254-298-1358



DATE:         February 7, 2003

REPLY TO
ATTN OF:      27099-14-Te

SUBJECT:      Food Stamp Program Administrative Costs - New Mexico

TO:           Esther Phillips
              Acting Regional Administrator
              Food and Nutrition Service Southwest Region
              Dallas, TX 75242

ATTN:         Albert M. McIlwain
              Regional Director
              Financial Management


This report presents the results of our audit of the Food Stamp Program Administrative Costs in
New Mexico. Your written response to the official draft report is included in its entirety as
exhibit B with excerpts and the Office of Inspector General’s position incorporated into the
Findings and Recommendations section of the report. Your written response contained
sufficient justification to reach a management decision on Recommendation No. 1. Please
follow Departmental and your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

Based on the response, management decision has not been reached on Recommendations
Nos. 2 and 3. The information needed to reach management decision is set forth in our
position section after each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation for
those recommendations for which a management decision has not yet been reached. Please
note that the regulation requires a management decision to be reached on all findings and
recommendations within a maximum of 6 months from report issuance, and final action to be
taken within 1 year of each management decision.

If you have any questions, please call me at 254-743-6565 or have a member of your staff
contact Amy McCormack, Assistant Regional Inspector General, at 254-743-6566.




      /s/
ROBERT E. GRAY
Regional Inspector General
 for Audit
                                EXECUTIVE SUMMARY
                               FOOD AND NUTRITION SERVICE
                                  FOOD STAMP PROGRAM
                                 ADMINISTRATIVE COSTS
                                   STATE OF NEW MEXICO

                                    REPORT NO. 27099-14-Te


                                             The objectives of our audit were to:
            RESULTS IN BRIEF                 (1) determine if the New Mexico Human
                                             Services Department (NMHSD) followed its
                                             cost allocation plan in claiming direct and
                indirect costs, and (2) review the accuracy and allowability of the
                administrative costs claimed on the quarterly Financial Status Reports
                (SF1-269). Except for the following issues, we found no departure from
                the cost allocation plan or material instances of inaccurate or unallowable
                administrative costs.

                     The NMHSD did not follow established financial management procedures
                     regarding funding of an information technology (IT) project because State
                     officials thought that the method of obtaining funding was too
                     cumbersome, burdensome, and added cost to the project. As a result,
                     NMHSD incurred unauthorized project expenses in hopes of retroactive
                     reimbursement, violated Food and Nutrition Service (FNS) procurement
                     guidelines, and may have inappropriately claimed salaries and benefits to
                     the Food Stamp Program (FSP).

                     NMHSD officials incurred costs without approval of their advance-planning
                     document (APD) in spite of multiple warnings by the Food and Nutrition
                     Service Regional Office (FNSRO) officials that they may be jeopardizing
                     Federal funding by doing so. Invoices obtained from a vendor that
                     provides system implementation services show total expenditures to date
                     of over $15 million, with FNS' potential share being 49 percent.

                     A portion of this amount was a result of NMHSD’s awarding of a software
                     development contract of about $1.5 million via a contract amendment to a
                     computer vendor already under contract despite FNS’ policy that any
                     contract amendment over $1 million must be approved in advance by the
                     agency.


1
    Standard Form.
USDA/OIG-A/27099-14-Te                                                                 Page i
                    We also found that NMHSD may have inappropriately allocated salary and
                    benefit expenses to the FSP. This issue is included as a General
                    Comment because of FNS' ongoing review, no recommendations are
                    warranted at this time.

                    At the request of the FNS Administrator, an Office of Inspector General
                    (OIG) representative met with and briefed the Administrator and other
                    FNS officials on the issues outlined in this report. OIG later issued a
                    briefing letter to the Administrator describing these issues.

                                   Determine what portion of the incurred
KEY RECOMMENDATIONS                IT project expense is unallowable and disallow
                                   any claim for reimbursement of unallowable
                                   project costs. Direct NMHSD to follow all
        aspects of the procurement guidelines in FNS Handbook 901.2

                                                      In a letter dated January 23, 2003, FNSRO
          AGENCY RESPONSE                             generally agreed with the findings and
                                                      recommendations (see exhibit B).

                                           We need additional information to reach
               OIG POSITION                management decision for Recommendations
                                           Nos. 2, and 3. The information needed to
                                           reach management decision is set forth in the
                 findings and recommendations section of the report.




    FNS Handbook 901, as amended December 12, 1997.
2



USDA/OIG-A/27099-14-Te                                                                  Page ii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i
   RESULTS IN BRIEF..................................................................................................... i
   KEY RECOMMENDATIONS ....................................................................................... ii
   AGENCY RESPONSE ................................................................................................ ii
   OIG POSITION ............................................................................................................ ii
TABLE OF CONTENTS................................................................................................. iii
INTRODUCTION............................................................................................................. 1
   BACKGROUND .......................................................................................................... 1
   OBJECTIVES .............................................................................................................. 2
   SCOPE ........................................................................................................................ 2
   METHODOLOGY ........................................................................................................ 3
FINDINGS AND RECOMMENDATIONS ........................................................................ 4
   CHAPTER 1 ................................................................................................................ 4
   NEW MEXICO HUMAN SERVICES DEPARTMENT DEVELOPED A NEW
   COMPUTER SYSTEM WITHOUT FNS’ APPROVAL................................................. 4
   FINDING NO. 1............................................................................................................ 4
   RECOMMENDATION NO. 1 ....................................................................................... 6
   RECOMMENDATION NO. 2 ....................................................................................... 7
   RECOMMENDATION NO. 3 ....................................................................................... 7
GENERAL COMMENTS................................................................................................. 8
   EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................... 9
   EXHIBIT B – FNS’ RESPONSE TO DRAFT REPORT ............................................. 10




USDA/OIG-A/27099-14-Te                                                                                                 Page iii
                            INTRODUCTION

                                       In 1977, Congress passed Public Law 95-113,
       BACKGROUND                      the Food Stamp Act, which made the FSP a
                                       permanent Federal food assistance program
                                       that provides support to needy households.

           Title 7, Code of Federal Regulations, part 277, dated January 1, 1999,
           established uniform requirements for the management of funds provided
           to the States for the administration of the FSP. Appendix A of this part,
           “Principles for Determining Costs Applicable to Administration of the Food
           Stamp Program by State Agencies,” sets forth the principles for
           determining the allowable costs of administering the program.

           States prepare a quarterly SF-269 of their FSP administrative costs and
           forward this report to FNS. FNS generally reimburses 50 percent of the
           States' direct and indirect administrative costs for certifying households,
           antifraud and investigations activities, automated data processing
           operations, fair hearings, outreach, nutrition education, and electronic
           benefits transfer issuance.

           In fiscal year (FY) 2000, the FSP was funded at over $21 billion, including
           over $2 billion for administrative costs. State agencies administer the
           FSP at State and local levels, including determination of eligibility and
           distribution of benefits.

           NMHSD is responsible for the FSP in the State of New Mexico. Total
           Federal outlay for the FSP administrative costs in the State increased from
           just over $12 million in FY 1999 to almost $12.5 million in FY 2000. This
           represented an increase of over 3 percent in 1 year. Monthly participation
           decreased from more than 178,000 recipients in FY 1999 to just over
           169,000 in FY 2000, or a 5 percent decrease over 1 year. In 2000, New
           Mexico's administrative cost per FSP participant increased by $6.14,
           compared to the region's average increase of $5.93.

           NMHSD officials reported to FNS that their computer system for
           administering assistance programs had exceeded its life expectancy and
           could no longer sufficiently perform business requirements due to the
           increasing needs of the Department. They proposed a new, fully
           integrated system with a life expectancy of 15 years and would include the
           FSP, Temporary Assistance to Needy Families, Work Programs, General
           Assistance, Claims, and Medicaid with a total cost of about $36 million.


USDA/OIG-A/27099-14-Te                                                    Page 1
           NMHSD bases its direct and indirect administrative costs on its cost
           allocation plan, approved by the cognizant Federal agency, the United
           States Department of Health and Human Services (HHS). Prior to
           approval, FNS has the opportunity to review the cost allocation plan and
           submit comments and recommendations to HHS. The FSP administrative
           costs are charged through direct and indirect costs. Direct costs are
           allocated according to case counts, direct charge, staff effort, and other
           approved methodologies.          Departmentwide indirect costs (utilities,
           supplies, maintenance, accounting, administrative, etc.) and some direct
           costs (eligibility determinations, certification, etc.) are allocated according
           to the random moment time studies.

                                    The objectives of this audit were to determine:
        OBJECTIVES                  (1) if NMHSD followed their cost allocation plan
                                    in claiming direct and indirect costs, and (2) the
                                    accuracy and allowability of the administrative
         costs claimed on the SF-269s.

                                       This audit was a part of a nationwide review of
             SCOPE                     FSP administrative costs. We performed this
                                       audit at the FNSRO in Dallas, Texas, and at
                                       the NMHSD Office in Santa Fe, New Mexico,
           from March through September 2002. We selected the State of New
           Mexico because it had the second highest increase of administrative cost
           per FSP participant in the Southwest Region for FY 2000 and because of
           concerns of the FNS Southwest Regional Office.

           In FY 2000, the FSP was funded at over $21 billion, including over
           $2 billion for administrative costs. State agencies administer the FSP at
           State and local levels, including determination of eligibility and distribution
           of benefits. Total Federal outlay for the FSP administrative costs in New
           Mexico was almost $12.5 million in FY 2000.

           We reviewed NMHSD’s accounting records for all quarters in FY 2000.
           During the audit, we discovered circumstances regarding an ongoing
           IT project that caused us to expand our scope to include transactions
           through June 2002.

           This audit was performed in accordance with Generally Accepted
           Government Auditing Standards.




USDA/OIG-A/27099-14-Te                                                        Page 2
                                        To accomplish our objectives and support our
       METHODOLOGY                      findings, we performed the following
                                        procedures:

           •   We reviewed regulations, policies, and procedures governing
               FSP administrative costs, including Office of Management and Budget
               (OMB) Circular A-87 (Circular), "Cost Principles for State, local, and
               Indian tribal governments."

           •   We interviewed FNS Southwest Regional Office and NMHSD officials to
               determine what controls are used to monitor FSP administrative costs.

           •   We obtained and reviewed a recent FNS financial management review
               of the State of New Mexico and NMHSD's cost allocation plan
               approved by HHS.

           •   We contacted an official at HHS' Division of Cost Allocation to identify
               any issues relating to NMHSD's cost allocation plan.

           •   We reviewed the results of State audits performed under the Single Audit
               Act to identify issues concerning the allocation of State administrative
               costs.

           •   We reviewed the cost allocation plan to determine if direct and indirect
               costs were properly allocated to the FSP.

           •   We reviewed the State’s accounting records and analyzed its charges
               and claims for reimbursement to the FSP for all quarters in FY 2000. We
               performed a general comparison of all the State’s SF-269s (quarters 1-4,
               end-of-year, and end-of-year revision) to the budget.

           •   We judgmentally selected the State’s fourth quarter data and validated
               that the costs were supported and properly allocated to the FSP in
               accordance with the cost allocation plan. Additionally, we verified direct
               costs of the employment and training cost category. We selected this
               category based on the amount of costs and because it contained only
               direct costs.

           •   We gathered, reviewed, and analyzed documentation associated with
               NMHSD’s ongoing IT project and interviewed officials involved with the
               project.




USDA/OIG-A/27099-14-Te                                                       Page 3
                      FINDINGS AND RECOMMENDATIONS

                               NEW MEXICO HUMAN SERVICES DEPARTMENT
     CHAPTER 1                 DEVELOPED A NEW COMPUTER SYSTEM WITHOUT
                               FNS’ APPROVAL

                                        NMHSD incurred costs in the development of
          FINDING NO. 1                 a new computer system even though FNS has
                                        not yet approved their APD and NMHSD told
       NMHSD DID NOT FOLLOW             them that Federal funds might be in jeopardy if
       ESTABLISHED FINANCIAL            they    continued      to   incur    or   claim
      MANAGEMENT PROCEDURES             reimbursement for pre-award costs. NMHSD
                                        management did not follow established
                                        financial management guidelines because
             they said the current procedures were “* * * cumbersome, burdensome,
             and added cost to IT projects” and believed that IT projects should have a
             separate method for approval.            As a result, NMHSD incurred
             unauthorized project expenses of $17,679,857 as of June 2002, of which
             49 percent, or $8,663,130 ($17,679,857 x 49 percent), was allocated to
             the FSP. NMHSD also did not follow prescribed FNS procurement
             procedures regarding contract amendments.

                     NMHSD Incurred Unauthorized Project Expenses

                     NMHSD began incurring costs in August 2000 to develop a pilot
                     project called CURAM,3 later known as the State System Applicant Links
                     to Services for Assistance (SSALSA), for a technology refresh using
                     forward-looking design and development techniques for use in
                     administering Government programs (including the FSP). NMHSD did
                     not submit the APD to FNSRO for review and approval until February
                     2002.

                     While reviewing the unauthorized expenses shown above, we found that
                     NMHSD was over $8.85 million in arrears to a vendor who provides
                     system development services. According to the APD, the State intended
                     to seek reimbursement from FNS for 40 percent of these expenses.
                     However, FNSRO determined during a separate review that an allocation
                     rate of 49 percent was more appropriate. They also determined that
                     NMHSD incurred and charged State costs via the normal cost allocation
                     plan prior to the approval of the APD. FNSRO recognized the potential
                     need to recover a portion of those costs.

3
    Per NMHSD officials, CURAM is a Gaelic word meaning “care and protection.”
USDA/OIG-A/27099-14-Te                                                           Page 4
                    FNSRO became aware of the project in November 2001 and verbally
                    warned NMHSD that, until the APD was approved, NMHSD was
                    potentially liable for all pre-award expenditures. FNSRO gave a second
                    written warning in March 2002 of the State’s potential liability.

                    The Circular4 establishes principles and standards for determining costs for
                    Federal awards carried out through grants, cost reimbursement contracts,
                    and other agreements with State and local governments and federally
                    recognized Indian tribal governments (governmental units). The Circular
                    defines pre-award costs as "those incurred prior to the effective date of the
                    award directly pursuant to the negotiation and in anticipation of the award
                    where such costs are necessary to comply with the proposed delivery
                    schedule or period of performance. Such costs are allowable only to the
                    extent that they would have been allowable if incurred after the date of the
                    award and only with the written approval of the awarding agency."

                    Additionally, FNS Handbook 901 (Handbook) cites the Circular’s
                    requirement of "* * * prior approval of costs for automated data processing
                    (ADP) equipment and services used for the administration of Federal grant
                    programs." The Handbook also provides guidance to ensure successful
                    approval and subsequent Federal funding of projects supporting FNS
                    programs. This guidance applies to States preparing requests for Federal
                    financial participation and FNSRO and Headquarters (HQ) organizations
                    reviewing and approving these requests. The Handbook further
                    emphasizes the communication and coordination within FNS State
                    agencies, FNSRO, and HQ stakeholders to ensure successful oversight
                    and management of system automation projects.

                    NMHSD officials acknowledged using the Handbook to prepare the APD.
                    The Deputy Director of the Income Support Division (ISD) said the State
                    was hopeful that FNSRO would retroactively reimburse their share of the
                    expenses but admitted that there was no guarantee of this. When we
                    pointed out the Circular’s requirement that pre-award costs be approved in
                    writing by the awarding agency, officials acknowledged that no official
                    approval was given but repeated their hopes that the costs would be
                    approved retroactively, even though FNSRO had given both verbal and
                    written warnings of the State's potential liability for any reimbursements
                    already received.      When asked why they did not comply, the
                    Secretary-Designate said the APD process was “* * * cumbersome,
                    burdensome, time consuming and added cost to the project.”




4
    OMB Circular A-87, as amended August 29, 1997.
USDA/OIG-A/27099-14-Te                                                               Page 5
           NMHSD Did Not Follow Procurement Guidelines

           NMHSD also violated FNS procurement guidelines by amending their
           software development contract for the CURAM/SSALSA project. The
           amendment increased the amount of the contract by $1.5 million (included
           in the total unauthorized amount).

           The Handbook states, "Federal grant management policies require that for
           entitlement programs (e.g., FSP), prior approval for noncompetitive
           procurement of ADP services or equipment is required for acquisitions
           exceeding $1 million in total costs. Cost charged to FNS programs that
           should have been submitted to and approved by FNS and have not been
           disclosed through an audit or review are subject to disallowance." The
           Handbook also requires prior FNS approval for contract amendments
           exceeding $1 million.

           NMHSD entered into a contract with Integrated Systems Solutions
           Corporation, later known as IBM Global, beginning January 1, 1997. The
           purpose of the contract was for maintenance and modification services for
           the ISD2 application system for NMHSD’s ISD. The contract was
           amended (amendment 4) in August 2000 to include a pilot project called
           CURAM for a distributed data warehouse using leading-edge architecture,
           technologies, tools, and techniques. The cost assigned to this pilot project
           was $1.5 million.

           NMHSD officials stated that this amendment was for "technology
           enhancements" and, since the original request for proposal included
           technology enhancements, believed the amendment was competitively
           bid. The State acknowledged that it took this action without obtaining prior
           approval or consulting the Handbook. In addition, the New Mexico Office
           of the State Purchasing Agent stated that it did not approve or review the
           amendment for compliance with State procurement procedures, indicating
           that NMHSD also did not follow the State’s procurement policy.

           At the request of the FNS Administrator, an OIG representative met with
           and briefed the Administrator and other FNS officials on the issues
           outlined here. OIG later issued a briefing letter to the Administrator
           describing these issues.

                                       Determine what CURAM/SSALSA project
  RECOMMENDATION NO. 1                 costs are unauthorized and disallow any claim
                                       for reimbursement of those costs.

           FNS Response

           FNS has disallowed all contractor costs for the project and has disallowed
           all project costs prior to receipt of the official APD in February 2002.
USDA/OIG-A/27099-14-Te                                                     Page 6
           OIG Position

           We accept the FNS management decision. For final action, FNS needs to
           provide the Office of the Chief Financial Officer with copies of
           documentation showing unauthorized and disallowed costs.

                                       Recover from NMHSD any unauthorized
  RECOMMENDATION NO. 2                 amount determined to have been reimbursed.


           FNS Response

           FNS has asked the State to submit a revised budget and to provide
           additional information to support the cost allocation plan. FNS stated that
           once it receives this information, it will recover the appropriate funds.

           OIG Position

           We cannot accept the FNS management decision at this time. In order to
           reach management decision, we need proposed timeframes for recovery
           of funds.

                                       Direct NMHSD to follow all aspects of the
  RECOMMENDATION NO. 3                 procurement guidelines in FNS Handbook
                                       901.

           FNS Response

           FNS agreed with this recommendation but did not provide its plan of
           action to be taken on this recommendation and proposed completion
           dates for implementation of the action.

           OIG Position

           We cannot accept the FNS management decision at this time. In order to
           reach management decision, we need a plan of action and proposed
           completion date for implementing the corrective action.




USDA/OIG-A/27099-14-Te                                                    Page 7
                       GENERAL COMMENTS

           NMHSD      May       Have      Allocated     Administrative       Expenses
           Inappropriately

           NMHSD may have inappropriately allocated salary and benefit expenses
           to the FSP. The HHS Centers for Medicare and Medicaid Services
           performed a quarterly review of NMHSD's administrative expenses. They
           found that the State claimed reimbursement for salaries and benefits of
           ISD eligibility workers who were reportedly spending 100 percent of their
           time on a system implementation included in an APD that had not yet
           been approved. Since this is the same APD that FNS had not approved,
           this condition may also be occurring in the FSP.

           HHS ultimately disapproved the APD, citing NMHSD’s failure to obtain
           prior written approval, sole source acquisitions for contracting services,
           and failure to meet information requirements.

           Because we notified them of these conditions, FNSRO conducted a
           separate review of the project. The review focused on establishing an
           acceptable methodology for allocating development costs and on
           determining project expenses (both paid and incurred) as of
           June 30, 2002. They determined that the State agency incurred total
           project costs of $14.5 million ($12.75 million in contractor costs and
           $1.75 million in noncontractor costs) through June 2002. Of this amount,
           only $3.8 million in contractor costs and $0.5 million in noncontractor costs
           had been paid. In addition, about $0.5 million in salaries and benefits had
           been paid. At the time of our review, FNSRO personnel were still
           conducting analyses to determine the extent that expenses may have
           been inappropriately charged to the FSP. Because of FNSRO’s review,
           we did not expand our work to further identify unauthorized costs already
           charged by NMHSD.




USDA/OIG-A/27099-14-Te                                                      Page 8
EXHIBIT A – SUMMARY OF MONETARY RESULTS

    FINDING          RECOMMENDATION
    NUMBER               NUMBER                     DESCRIPTION                AMOUNT                 CATEGORY
                                                                                                    FTBPTBU6 -
                                                      Unauthorized                                  Review of
          1                       1                                           $8,663,1305
                                                      Expenditure                                   Contract or Grant
                                                                                                    Agreement
                       Total                                                  $8,663,130




5
    A portion of this amount may be recoverable based on FNSRO review (see Recommendation No. 2).
6
    Funds to be put to better use.
USDA/OIG-A/27099-14-Te                                                                                     Page 9
EXHIBIT B – FNS’ RESPONSE TO DRAFT REPORT




USDA/OIG-A/27099-14-Te                      Page 10
Informational copies of this report have been distributed to:

Regional Administrator FNS                                      (2)
Agency Liaison Officer                                          (3)
Office of the Chief Financial Officer                           (1)
OCFO, Director, Planning and Accountability Division            (1)
General Accounting Office                                       (2)
